June 3, 2020
Via Electronic Filing and U.S. Mail
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

No. 19-1123, Lech v. Jackson

Dear Mr. Harris:
I represent Petitioners in the above-captioned matter. In accordance with this
Court’s Rule 15.5, Petitioners hereby waive the 14-day waiting period for
distributing the petition and respondent’s brief to the Court. Should you need any
additional information, please do not hesitate to let me know.
Best regards,
Jeffrey Redfern
Counsel for Petitioners

cc:

J. Andrew Nathan
Ashley Hernandez-Schlagel
Marni Nathan Kloster
Nicholas C. Poppe
Counsel for Respondent
All via Email

